U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                        Review of United States
                       Attorneys’ Offices’ Use of
                   Intelligence Research Specialists


                              December 2005




                     Report Number I-2006-003
                               EXECUTIVE DIGEST


       The Office of the Inspector General (OIG) reviewed the United States
Attorneys’ Offices’ (USAO) use of the 93 intelligence research specialist
positions authorized by Congress in fiscal year (FY) 2002. Specifically, we
assessed whether the positions were used effectively to support the USAOs’
and the Department of Justice’s (Department) overall anti-terrorism efforts
by collecting, analyzing, and disseminating information and intelligence.

       The Department’s Strategic Plan states that a priority of the
Department is to protect the United States against terrorism by preventing,
disrupting, and defeating terrorist operations before they occur. According
to the Strategic Plan, the Department will seek to develop and implement the
full range of resources available to investigate terrorist incidents and will
vigorously prosecute those who have committed, or intend to commit,
terrorist acts in the United States.

       After September 11, 2001, the Attorney General directed each USAO
to establish an Anti-Terrorism Advisory Council (ATAC) and later directed
each USAO to hire an intelligence research specialist to assist the ATAC.
According to the Attorney General, each ATAC will coordinate the
implementation of an operational plan to guide its district in preventing
terrorism; transmit information about terrorism and terrorist activities
between federal and local agencies; and coordinate its district’s response to
terrorism incidents. The intelligence research specialist position is designed
to assist the ATAC by coordinating anti-terrorist activities, analyzing the
relevance and reliability of threat information and investigative leads, and
ensuring that cases with terrorism connections are identified for
prosecution.

RESULTS IN BRIEF

       In FY 2002, the Department requested and received 93 intelligence
research specialist positions. Our review found that the Executive Office for
United States Attorneys (EOUSA) and the USAOs need to develop an
intelligence capability across all districts that fully supports the broad anti-
terrorism efforts of the Department. The intelligence research specialist
positions were created to facilitate the development of an intelligence
capability at each USAO. According to the intelligence community, an
effective intelligence capability requires the implementation of three
functions: collection of information, analysis of the information collected to
produce intelligence, and dissemination of the intelligence so it may be


U.S. Department of Justice                                                  i
Office of the Inspector General
Evaluation and Inspections Division
acted upon. Individually, many intelligence research specialists have
carried out these functions and have made valuable contributions to their
USAOs’ anti-terrorism efforts. However, we concluded that EOUSA, in
coordination with the USAOs, should ensure that the intelligence research
specialists use a systematic approach to performing their intelligence
functions so that their work can be integrated most effectively into the
Department’s anti-terrorism efforts.

      As we describe in this report, we found the following areas in which
the use of intelligence research specialists could be improved:

       •   Inconsistent information collection and access – EOUSA could
           further support USAOs’ intelligence capabilities by establishing
           standards for information collection efforts and working with the
           Federal Bureau of Investigation (FBI) to provide all intelligence
           research specialists with access to the FBI’s investigative
           databases.

       •   Inconsistent format, quality, and dissemination of work products –
           EOUSA could increase the usefulness of intelligence research
           specialists’ work products by defining and standardizing the work
           products, promulgating standards to ensure quality analytical
           products, ensuring the dissemination of analytical products to the
           Department, surveying its end users on the utility of the work
           products, and ensuring that its internal inspection unit’s review
           reports contain sufficient information to evaluate the intelligence
           research specialist position in each district.

       •   Outdated and disorganized policy guidance – EOUSA could better
           support intelligence research specialists’ access to complete and
           applicable policy guidance by creating a consolidated index of all
           policy guidance related to the intelligence research specialists and
           posting all the guidance on the intelligence research specialist
           intranet page.

       •   Monitoring of intelligence research specialist vacancies – EOUSA
           could better support the USAOs in their efforts to reduce gaps in
           coverage for short- and long-term intelligence research specialist
           vacancies.

       By addressing the shortcomings we identified, EOUSA and the USAOs
will be better positioned to respond to the imminent restructuring of the
Department’s intelligence entities. In response to the recommendations of


U.S. Department of Justice                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
the Commission on the Intelligence Capabilities of the United States
Regarding Weapons of Mass Destruction, in June 2005 the President
directed the Attorney General to reorganize the Department to establish a
new Assistant Attorney General for National Security and to consolidate the
intelligence functions of the FBI into a new Directorate.

       To respond effectively to these intelligence reforms, EOUSA and the
USAOs should focus greater attention on the use and integration of the
intelligence research specialists, and should seek to ensure that USAOs
have the intelligence capability necessary to develop new leads and identify
cases with a potential terrorism nexus.

Inconsistent Information Collection and Access

       We found that the information collection efforts at the USAOs differ
markedly from district to district. The intelligence research specialists
collect information through a variety of methods, such as reviewing case
files, meeting with ATAC members, and sharing information with their
counterparts in other agencies. However, there was no uniformity in the
sources used or in the types of information collected. Also, beyond basic
requirements, EOUSA has not identified the standard technology-based
tools needed by intelligence research specialists to collect and analyze
information. For example, not all of the intelligence research specialists
have access to the FBI’s investigative databases, an important source of
information for their work.

Inconsistent Format, Quality, and Dissemination of Work Products

       EOUSA and the USAOs have not defined the work products expected
from intelligence research specialists. Among the 226 work product
examples provided to us by 68 intelligence research specialists, we identified
29 different types of products with myriad names and formats. Further, the
intelligence report examples provided to us sometimes lacked the basic
information necessary to enable recipients to understand and use the
reports. The lack of a consistent format and content for the work products
makes it more difficult for users’ to readily identify and take appropriate
action on the intelligence contained in these products.

      EOUSA could improve work product consistency by establishing
quality standards for intelligence research specialists’ work products.
EOUSA stated that each USAO district is responsible for developing quality
standards for work products, but our review found that most have not done
so. Almost two-thirds of the intelligence research specialists told us that


U.S. Department of Justice                                               iii
Office of the Inspector General
Evaluation and Inspections Division
their USAOs have not established standards. Even had each USAO
individually established standards, there would still be no mechanism to
ensure the consistency of work products from USAO to USAO.
Furthermore, there is no review process for key products (such as original
analyses that address terrorist threats, discuss the Department’s anti-
terrorism efforts, and are widely disseminated). A review process would
make it easier to identify emerging regional trends, reduce duplication of
effort, identify other potential users of the work products, and make
connections among disparate events that could identify potential security
threats.

       EOUSA also has not enforced its own requirement that all analytical
work products be provided to the Office of Intelligence Policy and Review
(OIPR). On May 7, 2003, EOUSA directed that the intelligence research
specialist work products be provided to OIPR to ensure that relevant
intelligence from USAO districts is identified, shared, and acted upon
appropriately within the Department. OIPR’s Chief of Staff stated that OIPR
has not seen this directive or received any intelligence research specialist
work products.

        Also, EOUSA could better monitor the utility of intelligence research
specialists’ work products by surveying internal and external end users.
EOUSA agreed that a survey of end users would be useful. Further,
although EOUSA’s internal inspection unit, the Evaluation and Review Staff
(EARS), has evaluated the intelligence research specialists function as part
of its triennial office reviews since June 2004, the reports on those reviews
did not contain sufficient information to evaluate the intelligence research
specialist position in each district.

Outdated and Disorganized Policy Guidance

       EOUSA needs to improve intelligence research specialists’ access to
complete and applicable policy guidance. There is no consolidated index of
all policy guidance applicable to the intelligence research specialists, nor is
all guidance posted on the intelligence research specialist intranet page.
Our review of the guidance available on the intelligence research specialist
intranet page found that it had not been updated and was poorly organized.
Information on the intranet was duplicative, lacked descriptive titles to
identify the content, and could not be sorted by title, subject matter, or
recipient. As a result, it is difficult for intelligence research specialists and
others to find complete and applicable guidance.




U.S. Department of Justice                                                  iv
Office of the Inspector General
Evaluation and Inspections Division
Monitoring of Intelligence Research Specialist Vacancies

       Finally, EOUSA could better support the USAOs in their efforts to
address gaps in coverage caused by short- and long-term vacancies in
USAO intelligence research specialist positions. As of June 15, 2005,
20 percent of the positions were vacant because the incumbent was on
military leave, a special detail, or the position had not been filled. In some
districts, limited coverage was provided by other USAO personnel or
intelligence research specialists from adjoining districts. However, this ad
hoc approach is not adequate to ensure that intelligence analysis is
performed consistently, and that important information from intelligence
research specialists is shared throughout all USAO districts.

CONCLUSION AND RECOMMENDATIONS

       Three years after the Department received intelligence research
specialist positions for each USAO, EOUSA has not yet ensured that the
intelligence research specialists employ a systematic approach to their
information collection efforts, that intelligence work products are consistent,
and that critical information and intelligence produced by intelligence
research specialists are shared among USAO districts and throughout the
Department as appropriate. While each U.S. Attorney exercises
considerable discretion in the use of his or her resources to further the
district’s priorities and meet local needs, we believe that EOUSA and the
USAOs could improve the support that the intelligence research specialists
provide to the broader anti-terrorism activities of the Department.

      The OIG is making eight recommendations to help EOUSA and the
USAOs improve the use of the intelligence research specialists in supporting
the Department’s anti-terrorism efforts. We recommend that the EOUSA:

       1.     Improve the consistency of the implementation of the
              intelligence research specialist function by:

              a. Identifying the types of information, by source, to be
                 collected by intelligence research specialists;

              b. Working with the FBI to provide all intelligence research
                 specialists with access to the FBI’s investigative databases

              c. Identifying standard tools for all intelligence research
                 specialists;



U.S. Department of Justice                                                  v
Office of the Inspector General
Evaluation and Inspections Division
              d. Surveying intelligence research specialists to determine
                 which of the standard tools they lack and supplying missing
                 tools to those who need them;

              e. Defining work products that intelligence research specialists
                 produce; and

              f. Establishing standards to ensure the consistency and
                 quality of intelligence research specialist work products.

       2.     Provide intelligence research specialists with current and
              complete guidance by:

              a. Developing and posting on the EOUSA’s intranet site an
                 intelligence research specialist manual that includes all
                 pertinent guidance issued by the Attorney General, EOUSA,
                 and USAOs on the roles and duties of the intelligence
                 research specialist, including templates, examples of work
                 products, and quality standards.

              b. Updating the EOUSA intranet page to provide complete,
                 current, and organized guidance.

       3.     Identify ways to ensure that intelligence research specialists’
              original analytical work products are reviewed in order to meet
              quality standards.

       4.     Ensure that the work of the intelligence research specialists is
              disseminated to the Department as appropriate.

       5.     Survey consumers of intelligence research specialist products
              regarding work product applicability, quality, and areas for
              improvement.

       6.     Ensure that the Evaluation and Review Staff (EARS) reports
              include an evaluation of the intelligence research specialist
              position.

       7.     Provide appropriate coordination to ensure the continuity of
              intelligence research specialist functions in all USAOs with
              short- and long-term vacancies.




U.S. Department of Justice                                                    vi
Office of the Inspector General
Evaluation and Inspections Division
       8.     Reassess the role and duties of the intelligence research
              specialists in light of the Department re-organization of its
              intelligence entities.




U.S. Department of Justice                                                    vii
Office of the Inspector General
Evaluation and Inspections Division
                                    TABLE OF CONTENTS


EXECUTIVE DIGEST ..............................................................................i

BACKGROUND ......................................................................................1

PURPOSE, SCOPE AND METHODOLOGY ...........................................12

RESULTS OF THE REVIEW.................................................................15

        Information collection .................................................................17
             Standard technology-based tools..........................................19

        Work products ............................................................................22
           Format and content .............................................................22
           OIG intelligence report review...............................................23
           Guidance .............................................................................24
           Quality standards ................................................................26
           EOUSA Review .....................................................................26
           Assessing work product utility .............................................27

        Policy guidance ...........................................................................29
             Intranet site .........................................................................29

        Dissemination of intelligence.......................................................30

        Vacancy Rates ............................................................................31

CONCLUSIONS AND RECOMMENDATIONS ........................................36


APPENDIX       I:      Intelligence Research Specialist Functions .................39
APPENDIX       II:     EOUSA Organization Chart........................................43
APPENDIX       III:    List of Acronyms........................................................44
APPENDIX       IV:      EOUSA’s Response to the Draft Report ......................45
APPENDIX       V:      The OIG’s Analysis of EOUSA’s Response...................53




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


     The Department’s Strategic Plan states that the first priority of the
Department of Justice (Department) is to protect the United States against
terrorism by preventing, disrupting, and defeating terrorist operations
before they occur; developing and implementing the full range of resources
available to investigate terrorist incidents; and vigorously prosecuting those
who have committed, or intend to commit, terrorist acts in the United
States. 1 The Department’s Strategic Plan outlines several strategies to
achieve these objectives, including establishing anti-terrorism task forces
within each judicial district to coordinate anti-terrorist activities; developing
an intelligence capability that fully supports the Department’s
counterterrorism efforts; and building strong cases for prosecution through
the use of district anti-terrorism task forces. 2 The Department requested
and received from the Congress money to fund one intelligence research
specialist position for each United States Attorney’s Office (USAO) in fiscal
year (FY) 2002 to facilitate the coordination of anti-terrorist activities with
investigative agencies, develop an intelligence capability, and build stronger
cases.

Coordination of Anti-Terrorist Activities

     The creation of the intelligence research specialist positions was one of
a number of actions taken by the Department after September 11, 2001 to
improve its counterterrorism capabilities. On September 17, 2001, the
Attorney General directed each USAO to establish an Anti-Terrorism
Advisory Council (ATAC). 3 In part, intelligence research specialists were
designed to facilitate the mission of the ATAC. According to the Anti-
Terrorism Plan Memorandum for All U.S. Attorneys, the ATACs coordinate
the implementation of an operational plan for preventing terrorism; transmit
information about terrorism and terrorist activities between federal and
local agencies; and coordinate the districts’ response to a terrorist incident. 4



       1   Strategic Plan, Fiscal Years 2001-2006, U.S. Department of Justice, pp. 18-22.

       2   Ibid.

       3 ATACs were originally called Anti-Terrorism Task Forces (ATTFs). There are

approximately 11,000 members in the 93 ATACs across the country.

       4 Anti-Terrorism Plan Memorandum for All U.S. Attorneys, Attorney General John

Ashcroft, U.S. Department of Justice, September 17, 2001.

U.S. Department of Justice                                                             1
Office of the Inspector General
Evaluation and Inspections Division
The ATACs are open to a broad range of participants and do not require
security clearances. 5

     In addition to ATACs, the Attorney General directed the expansion of
the Joint Terrorism Task Forces (JTTF), led by the Federal Bureau of
Investigation (FBI). The JTTFs’ mission is to detect and investigate
terrorists and terrorist groups and prevent them from carrying out terrorist
acts directed against the United States. Membership in the JTTFs is limited
to law enforcement, intelligence, and military personnel with Top Secret
security clearances. To enhance the effectiveness of the USAOs’ anti-
terrorism activities, the intelligence research specialists were intended to
serve as a bridge between the JTTF and the ATAC. For example, intelligence
research specialists were expected to check on the results of leads
forwarded to the JTTFs by ATAC members and, at the same time, transmit
important threat information from the JTTFs to ATAC members at the
appropriate classification level.

Developing an Intelligence Capability at the USAOs and Building
Stronger Cases

     The intelligence research specialist positions were also created to
develop an intelligence capability at the USAOs. To develop this capability,
three areas need to be addressed: information sharing, information
analysis, and coordination. In the memorandum, Prevention of Acts
Threatening Public Safety and National Security, November 8, 2001, the
Attorney General directed the heads of Department components to take
prompt action in developing and improving capabilities in these three areas.
In reference to information analysis, the Attorney General stated that:

       Information is only as valuable as the uses to which it is put.
       Beyond collection and dissemination, information in your
       custody must be carefully and expertly analyzed in order to
       assess its relevance and reliability in identifying threats and
       investigative leads.    I hereby direct you to assess the
       intelligence analysis capacity of your component and, where
       deficient, to improve such capacity or, where warranted,
       institute procedures to ensure proper analysis by related
       components or agencies. 6

       5 ATAC members include federal, state, and local law enforcement officers; first

responders; private industry security personnel; and individuals from any other relevant
organization that has a need for terrorism-related threat information.
       6 Prevention of Acts Threatening Public Safety and National Security, Attorney

General John Ashcroft, U.S. Department of Justice, November 8, 2001.

U.S. Department of Justice                                                            2
Office of the Inspector General
Evaluation and Inspections Division
      In a November 13, 2001, memorandum to all U.S. Attorneys, the
Attorney General informed them that the proposed FY 2002 budget included
funding for 93 analysts, one for each USAO district. 7 According to the
Attorney General, the intelligence analyst positions were created because
“[i]nformation must be appropriately analyzed before it can be used to its
full potential.” The Attorney General directed all U.S. Attorneys to ensure
that the intelligence analysts had access to the most recent and reliable
information available through coordination with the USAO’s Chief
Information Officer and Law Enforcement Coordinating Committee. The
memorandum also stated that the intelligence analysts would act as a
conduit of information from federal law enforcement and intelligence
agencies to local law
enforcement. 8 In December 2001,               A New Position for the USAOs
the Executive Office for United
                                          Shortly after September 11, 2001, the
States Attorneys (EOUSA)
                                       Attorney General ordered all Department
assigned an Attorney Advisor to        components to assess and improve their
coordinate the intelligence            intelligence analysis capability. As part of
research specialist program from       that effort, EOUSA, in cooperation with
Washington, D.C.   9                   USAOs, conceived, developed, and funded
                                              an intelligence research specialist position
                                              for each USAO. Unlike any other USAO
     The first Attorney Advisor told          position, the intelligence research specialists
the OIG that the Department                   collect and disseminate intelligence outside
decided to establish the 93                   of traditional prosecutorial efforts, and work
intelligence research specialist              beyond their district to share information
positions at the USAOs for three              with JTTFs and other federal, state, and
                                              local anti-terrorism partners nation-wide.
reasons. First, the U.S. Attorney             In contrast, other USAO staff work primarily
is the highest ranking federal law            to support their district’s litigation or
enforcement officer in the district,          prosecutions,       and      USAs      exercise
and many federal law enforcement              considerable autonomy in directing their
officers rely on the USAO to                  work. According to EOUSA, the unique
                                              nature of the intelligence research specialist
prosecute their cases. As a result,           position, combined with the difficult time
the law enforcement community                 period, made implementing the positions
generally considers USAOs to be               challenging for EOUSA and the USAOs.



       7  There are 94 USAO districts, but only 93 U.S. Attorneys. One U.S. Attorney is
assigned to each of the districts, with the exception of Guam and the Northern Mariana
Islands, where a single U.S. Attorney serves both districts. For the purposes of this report,
we refer to 93 USAOs.

       8 Cooperation with State and Local Officials in the Fight Against Terrorism,

Attorney General John Ashcroft, U.S. Department of Justice, November 13, 2001.

       9 The first Attorney Advisor served from December 2001 to August 2003, and the

second served from October 2003 to October 2004.

U.S. Department of Justice                                                               3
Office of the Inspector General
Evaluation and Inspections Division
“turf neutral” because they do not represent the interests of any individual
agency. Second, prosecuting cases requires federal law enforcement
agencies to share information with USAO staff that they may not have
shared with other agencies. One of the original roles envisioned for
intelligence research specialists was to coordinate with intelligence analysts
at other agencies to share case information. Developing an intelligence
capability would also enable USAOs to better identify cases with terrorism
connections. For example, a drug case involving money laundering could be
identified as a terrorism case if the money was used to provide material
support for a terrorist organization.

       Third, adding an intelligence capacity at the USAOs would help
identify duplication of effort or potential conflict between different federal
law enforcement agencies that are independently investigating the same
subject(s). For example, if the Drug Enforcement Administration (DEA)
requested a search warrant from the USAO on a suspected drug trafficker,
and the JTTF was investigating the same subject for links to terrorism, the
intelligence research specialist would be able to alert the involved AUSAs of
the potential conflict.

Memorandums From the Director of EOUSA Regarding the Role of
Intelligence Research Specialists.

     From September 2002 to May 2003, EOUSA sent three memorandums
to all U.S. Attorneys to instruct USAOs on how intelligence research
specialists should be used. On September 25, 2002, the Director of EOUSA
sent all U.S. Attorneys a memorandum titled Intelligence Research
Specialist “Best Practices.” The memorandum stated that the intelligence
research specialists were primarily information "gatherers and sharers" in
support of ATAC activities. The memorandum also reminded U.S. Attorneys
that “Intelligence Research Specialist (IRS) positions are NOT to be used as
investigative positions” and that “these positions should not take the place
of, nor interfere with, the intelligence gathering activities of the investigative
agencies.” Instead, according to the memorandum, the U.S. Attorney or
ATAC Coordinator was to consider using intelligence research specialists to
perform the functions summarized below: 10

     •   Information sharing. Serve as a conduit of information by
         discovering and bridging gaps in information sharing, assisting with
         community outreach efforts, filtering bulletins and alerts for
         distribution, and assisting in implementing procedures to better

         10 Appendix I provides additional information on the functions performed by

intelligence research specialists on a regular basis.

U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
          facilitate intelligence sharing. Liaison with intelligence research
          specialists from other agencies, as well as personnel from regional
          intelligence centers, to facilitate information sharing, develop
          personal relationships, and gather strategic intelligence information.

     •    Intelligence analysis. Ensure that information is properly analyzed
          and possible links are established and referred to appropriate
          investigating agencies. Assist with strategic intelligence. Collect,
          analyze, and recognize threat indicators unique to the district.

     •    Case support and review. Prepare flow and event charts regarding
          possible terrorism activities for use in pending investigative matters
          and later as court exhibits. Review declined case files to ensure the
          individual has been checked against the proper databases for
          possible terrorism connections or other current wants or warrants.
          Attend intake briefings, post summaries, and review case files in an
          effort to establish possible links between investigations and cases.
          Research local organizations that may have information on terrorism
          and draft white papers.

     •    JTTF and ATAC activities. Participate in appropriate JTTF and
          ATAC meetings. Provide leads discovered by analyzing or mining
          data to the JTTF or other appropriate law enforcement agency for a
          follow-up investigation.

      On February 14, 2003, the Director of EOUSA sent a second
memorandum titled Designation of AUSAs Pursuant to the Attorney
General’s March 6, 2002 Intelligence Sharing Procedures. In this
memorandum, the Director described the procedures to be followed in the
sharing of information on FBI intelligence investigations with intelligence
research specialists:

         Intelligence research specialists are entitled to receive
         information from an FBI intelligence investigation pursuant
         to March 2002 Procedures if they are assigned to work on a
         particular matter by the USA or a designated AUSA and are
         properly cleared and trained. In this regard, the IRSs will be
         treated like other non-lawyer support staff; such staff do not
         need to be designated by the USA but instead are entitled to
         receive information derivatively by virtue of their working
         with a designated USA or AUSA.




U.S. Department of Justice                                                  5
Office of the Inspector General
Evaluation and Inspections Division
      On May 7, 2003, the EOUSA Director sent a third memorandum titled
Integration of USAO Intelligence Research Specialists. In the memorandum,
the Director emphasized the importance of involving intelligence research
specialists with the JTTFs:

       The leadership of the Department . . . has asked me to
       reiterate the importance of having the intelligence research
       specialist actively involved with the JTTFs . . . . The purpose
       of the involvement is three-fold.       First, the intelligence
       research specialists will be able to provide the JTTFs with
       intelligence information that is being generated by ATTF
       members who may not be members of the JTTF, as well as
       intelligence obtained by the USAO from other non-terrorism
       prosecutions and investigations. Second, the JTTFs will
       benefit from the part-time assistance of an additional
       Intelligence Analyst, many of whom will have graduated from
       the FBI Academy’s College of Analytical Studies. Third, the
       active participation of your intelligence research specialists
       will help ensure that information from those task forces is
       shared in a more timely and fulsome manner with
       appropriately cleared members of your own offices.

       These three memorandums represent the main operational guidance
from EOUSA to USAOs regarding the intelligence research specialist
position. EOUSA also sent additional memorandums on the administrative
aspects of the intelligence research specialist position.

Implementation of the Intelligence Research Specialist Position

Role of EOUSA

        EOUSA provides the 93 U.S. Attorneys with general executive
assistance and direction, policy development, administrative management
direction and oversight, operational support, and coordination with other
components of the Department and other federal agencies (Appendix II).
Among EOUSA’s responsibilities, four are relevant to its management of the
intelligence research specialist positions. First, EOUSA promotes,
facilitates, and monitors programs within the USAOs designated by the
Attorney General as priorities of the Department. Because anti-terrorism
activities have been designated as the top priority of the Department, and
the intelligence research specialists play a key role in the USAOs’ anti-
terrorism activities, it is EOUSA’s responsibility to promote, facilitate, and
monitor the program. Second, EOUSA evaluates the performance of the


U.S. Department of Justice                                                6
Office of the Inspector General
Evaluation and Inspections Division
USAOs, making appropriate reports and taking corrective action where
necessary. Third, EOUSA publishes and maintains a U.S. Attorneys' Manual
and bulletin for the internal guidance of the USAOs and other organizational
units of the Department. Fourth, EOUSA supervises the operation of the
Office of Legal Education, which develops, conducts, and assists in the
training of Department legal personnel and other federal legal personnel,
which would include the intelligence research specialists.

       Since the creation of the intelligence research specialist positions,
EOUSA has assigned two different Attorney Advisors to coordinate the
implementation of the intelligence research specialist program. The first
Attorney Advisor contacted the DEA and the FBI to determine how they
used intelligence research specialists and also attended a conference for
First Assistant U.S. Attorneys where he obtained input from them regarding
the role of the intelligence research specialists. The Attorney Advisor also
attended the annual conference for U.S. Attorneys where he presented the
information he had collected and obtained input from the U.S. Attorneys.

       From August 2003 to October 2003, and September 2004 to
September 2005, the Deputy Counsel to the Director of EOUSA served as
the point of contact and coordinator for intelligence research specialists. In
September 2005, EOUSA detailed an intelligence research specialist from
the field to serve as the national coordinator. Unlike other programs, such
as the Law Enforcement Coordinating Committee, neither the Deputy
Counsel nor the detailed national coordinator have a staff to maintain
liaison with intelligence research specialists; monitor and assist in
evaluating intelligence research specialist activity; provide technical
assistance; or work with numerous national criminal justice and intelligence
organizations on intelligence research specialist matters.

Funding for Intelligence Research Specialists

       In FY 2002, Congress appropriated supplemental funding of
$56,370,000 to increase USAO staffing levels. Of the 468 positions funded
for anti-terrorism investigative and prosecutorial needs, 93 positions were
for intelligence research specialists. 11 Although the supplemental funded
each intelligence research specialist position at the General Schedule (GS)
12 grade level, U.S. Attorneys could fill the position at a different grade level
if the district had extra funds to defray the cost. In FY 2003, intelligence
research specialist salaries and ancillary costs (such as training, travel, and
supplies) were annualized into the general salaries and expenses account.

      11 Allocation of Personnel Resources Funded Through the Fiscal Year (FY) 2002

Department of Defense Appropriation, EOUSA Director, February 24, 2002.

U.S. Department of Justice                                                        7
Office of the Inspector General
Evaluation and Inspections Division
As a result, neither salaries nor ancillary costs for intelligence research
specialists have appeared as a separate line item in subsequent budgets.
Hiring and Personnel

       EOUSA and the USAOs jointly selected the staff for the intelligence
research specialist positions. EOUSA, the Attorney General’s Advisory
Committee, and the Administrative Officers’ Working Group developed the
position descriptions and recruitment documents for intelligence research
specialists. EOUSA established the recruitment process, but each USAO
district conducted its own interviews for the intelligence research specialist
position. EOUSA approved all final selections for the permanent position
made by the districts. The following chart depicts the intelligence research
specialists staffing levels for each calendar year.

                                                      Chart 1: Intelligence Research Specialist Staffing Levels



                                                 80



                                                 70
                                                                                                        79
   Number of intelligence research specialists




                                                 60



                                                 50
                                                                                                 67

                                                 40



                                                 30                        44



                                                 20



                                                 10

                                                              6
                                                  0
                                                           2001         2002                   2003   2004
                                                                               Calendar Year


Source: EOUSA.




U.S. Department of Justice                                                                                        8
Office of the Inspector General
Evaluation and Inspections Division
Role of the United States Attorneys’ Offices

       The U.S. Attorneys serve as the nation’s principal litigators under the
direction of the Attorney General. 12 Each U.S. Attorney is the chief federal
law enforcement officer of the United States within the judicial district. The
U.S. Attorneys have three statutory responsibilities: the prosecution of
criminal cases brought by the U.S. government, prosecution and defense of
civil cases in which the United States is a party, and collection of debts
owed the U.S. government which are administratively uncollectible.

       The workload of each district includes a variety of cases. Each U.S.
Attorney exercises discretion in the use of his or her resources to further the
district’s priorities and the needs of the local communities. Within each
USAO, the intelligence research specialist works to address the needs
identified by the U.S. Attorney. In many districts, the ATAC Coordinator
supervises and evaluates the intelligence research specialist. Intelligence
research specialists may work at the main office where the U.S. Attorney is
located or may be located at a branch office in the district. According to
EOUSA, each U.S. Attorney is ultimately responsible for the intelligence
research specialist employed within that office.

Professional Background, Experience, and General Schedule (GS) Levels

      The intelligence research specialists working at the USAOs come from
a variety of professional backgrounds. Of the 79 specialists employed as of
March 2005, the majority worked previously in the military or law
enforcement. However, USAOs have also hired specialists with other
government, private sector, and foreign intelligence experience.

       On average, the specialists we interviewed had 14 years of intelligence
experience. Half stated that they had 15 or more years of intelligence
experience, with 9 individuals responding that they had 30 or more years of
intelligence experience. However, 15 intelligence research specialists stated
that they did not have any intelligence experience prior to coming to the
USAOs. Most of these individuals came from a law enforcement
background. All but one individual was hired at the GS-12 or GS-13 grade
level.




       12 U.S. Attorneys Mission Statement. Online: http://www.usdoj.gov/usao,

accessed September 2005.

U.S. Department of Justice                                                       9
Office of the Inspector General
Evaluation and Inspections Division
Security Clearances

      Prior to entrance on duty, EOUSA required that each intelligence
research specialist have a completed and adjudicated Single Scope
Background Investigation (SSBI). 13

Developments That Will Affect the Intelligence Research Specialists

Department restructuring

       On June 29, 2005, the President directed the Attorney General to
restructure the intelligence operations of the Department, including the
FBI. 14 The restructuring resulted from two recommendations contained in
the report of the Commission on the Intelligence Capabilities of the United
States Regarding Weapons of Mass Destruction (March 31, 2005). 15 Those
recommendations were:

       To ensure that the FBI's intelligence elements are responsive
       to the Director of National Intelligence [DNI], and to
       capitalize on the FBI's progress, we recommend the creation
       of a new National Security Service within the FBI under a
       single Executive Assistant Director.      This service would
       include       the    Bureau's       Counterterrorism     and
       Counterintelligence Divisions and the Directorate of
       Intelligence.     The service would be subject to the
       coordination and budget authorities of the DNI as well as the
       same Attorney General authorities that apply to other
       Bureau divisions.

       The Department of Justice's primary national security
       elements - the Office of Intelligence Policy and Review, and
       the Counterterrorism and Counterespionage sections -

       13  EOUSA waived the requirement for an adjudicated background investigation for
some of the specialists. On October 4, 2002, the EOUSA Director informed all U.S.
Attorneys that “intelligence research specialists with nearly completed background
investigations who are current or former federal government employees may qualify to be
waived on board.” As of March 2005, 49 of the 79 intelligence research specialists
(62 percent) received their final security clearance an average of 99 days after they entered
on duty.

       14 Strengthening the Ability of the Department of Justice to Meet Challenges to the

Security of the Nation, President George W. Bush, June 29, 2005.

       15   Online: http://www.wmd.gov/report, accessed September 2005.

U.S. Department of Justice                                                             10
Office of the Inspector General
Evaluation and Inspections Division
       should be placed under a new Assistant Attorney General for
       National Security.

       In a June 29, 2005 message to Department employees, the Attorney
General confirmed that the reorganization will consolidate the Office of
Intelligence Policy and Review (OIPR) and the Criminal Division’s
Counterterrorism and Counterespionage Sections into a new National
Security Division. A new Assistant Attorney General will lead the National
Security Division.

       In addition, the message stated that at the FBI, a new senior position
directly under the Deputy Director will oversee the FBI’s intelligence,
counterterrorism, and counterintelligence components, which will be
combined to form a National Security Service

State intelligence fusion centers

       Another development that may affect the operations of the intelligence
research specialists is the establishment of state intelligence fusion centers.
At least 13 states have established fusion centers to integrate and analyze
information from disparate sources and identify patterns indicative of
criminal or terrorist activity. During our research, two intelligence research
specialists told us that they were involved extensively in the development of
intelligence fusion centers in their states. They both said that they worked
to garner support for the centers, develop standard operating procedures,
and determine what role they would perform as a member of the center.




U.S. Department of Justice                                               11
Office of the Inspector General
Evaluation and Inspections Division
                   PURPOSE, SCOPE, AND METHODOLOGY


Purpose

      The Office of the Inspector General (OIG) conducted this review to
evaluate the implementation of the intelligence research specialist positions
at the USAOs. The OIG assessed how the USAOs employed the intelligence
research specialists to analyze and share terrorism-related information,
including the functions of the intelligence research specialist positions and
the results of their work. We also reviewed guidance, duties, and the work
products related to USAO intelligence research specialists.

Scope and Methodology

      We conducted fieldwork from February 2005 through June 2005. The
review encompassed the intelligence research specialists’ work at all 93
USAOs.

Document Review

      We reviewed memorandums and guidance from the Attorney General,
the Deputy Attorney General, and EOUSA related to the intelligence
research specialist positions. In addition, we reviewed all USAO web sites
for additional information about the duties of the intelligence research
specialists. We reviewed EOUSA’s strategic plans, performance
measurements, position descriptions, and budget information. We obtained
and reviewed the FBI’s intelligence analyst training course materials and the
FBI’s Directorate of Intelligence memorandums and reports. We also
reviewed OIG and Government Accountability Office reports related to
information sharing and intelligence.

       In addition, we received 226 examples of work products provided to us
from 68 intelligence research specialists. Among the 226 examples were 29
different types of work products. Work products included ATAC
newsletters, link charts, analytical reports, PowerPoint presentations, and
course training materials. Of the 79 intelligence research specialists
interviewed by the OIG, 7 did not send material because they work on
national security information (NSI), and another 4 said they did not produce
any work products or were unable to provide examples because they were
on extended leave.




U.S. Department of Justice                                              12
Office of the Inspector General
Evaluation and Inspections Division
Interviews

      At EOUSA, we interviewed officials to obtain background information
about the intelligence research specialist positions. We spoke with two
former Attorney Advisors for the intelligence research specialists to discuss
history, purpose, and positions. We also spoke with the Deputy Counsel to
the Director of EOUSA to discuss the development of the intelligence
research specialist conferences and training opportunities. Further, we
spoke with the Assistant Director for the Evaluation and Review Staff
(EARS) to obtain additional information about the evaluation of USAO
operations.

      At the FBI, we met with the Executive Assistant Director for the
Directorate of Intelligence to discuss how USAO intelligence research
specialists interact with the FBI and the challenges facing the intelligence
community. We also met with officials at the College of Analytical Studies at
the FBI Academy in Quantico, Virginia, to obtain information about training
provided to USAO intelligence research specialists.

       At the USAO districts selected for site visits, we spoke with USAO
managers to discuss the intelligence research specialist positions. We also
met with personnel from state fusion centers; local, state, and federal law
enforcement agencies; and the U.S. military to obtain feedback on
intelligence research specialist services and work products.

       We interviewed 79 intelligence research specialists employed by the
USAOs to discuss their roles and responsibilities. We spoke with a JTTF
Coordinator and the First AUSA from the Eastern District of Virginia about
the use of the intelligence research specialists. We also interviewed two U.S.
Attorneys and two FBI special agents who spoke at the March 2005
intelligence research specialist conference. Finally, we contacted the Chief
of Staff at the Office of Intelligence Policy and Review (OIPR) to obtain
additional information about the receipt of intelligence research specialist
products.

Survey

      We sent surveys to all U.S. Attorneys and ATAC Coordinators at all
the USAOs. Fifteen U.S. Attorneys and 68 ATAC Coordinators or other
USAO officials (for a total of 83) provided responses to our survey. Their
responses represented 74 of 93 districts.




U.S. Department of Justice                                              13
Office of the Inspector General
Evaluation and Inspections Division
Field Visits

       We visited six USAO districts to conduct interviews and observe the
intelligence research specialists’ work: Massachusetts, Vermont, Western
Texas, Northern Texas, Central California, and Southern California. We
also attended portions of the intelligence research specialist annual
conference in Columbia, South Carolina, to learn about the program and
current issues. We toured the Maryland Coordination and Analysis Center
and the Massachusetts State Fusion Center to observe the operations of
state intelligence fusion centers. 16

       We attended State and Local Anti-Terrorism Training provided by the
Institute for Intergovernmental Research in Madison, Wisconsin. We also
attended a critical infrastructure meeting and an anti-terrorism training
session presented by the Maryland ATAC.

Intelligence Research Specialist Functions

       We identified the core functions of the intelligence research specialist
positions by reviewing guidance from the Attorney General and EOUSA;
reviewing intelligence research specialist position descriptions and EOUSA
articles; tabulating survey responses from ATAC Coordinators and U.S.
Attorneys; and interviewing intelligence research specialists and EOUSA
officials. In addition, we identified examples of best practices in each of the
core functions. A description of the core functions and best practice
examples is contained in Appendix I.




       16 In general, intelligence fusion centers integrate and analyze information from

disparate sources to spot criminal and terrorism patterns.

U.S. Department of Justice                                                           14
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


       The intelligence research specialist functions have not
       been consistently implemented at all USAOs to ensure
       that information is collected and analyzed, and that the
       intelligence developed is disseminated to support the
       Department’s anti-terrorism efforts.      EOUSA and the
       USAOs could further support the development of USAOs’
       intelligence   capabilities   by    establishing uniform
       information collection requirements, working with the
       FBI to provide all intelligence research specialists with
       access to the FBI’s investigative databases, and
       identifying and providing essential tools. Also, EOUSA
       could increase the utility of intelligence research
       specialists’ work products by defining them and
       establishing quality standards for analytical products.
       Currently, these work products differ markedly in format
       and content, which may affect the end users’ ability to
       readily identify and act upon the intelligence. At the
       time of the OIG’s review, the policy guidance that was
       available on the EOUSA intranet site was outdated and
       disorganized.     Further, no intelligence research
       specialist work products had been shared with OIPR, as
       directed by EOUSA. Finally, approximately one-fifth of
       all intelligence research specialist positions lacked
       coverage because the positions were unfilled or the
       incumbents were on military leave. EOUSA could better
       support USAOs by identifying critical vacancies and
       coordinating coverage in all districts.

      During this review, intelligence research specialists provided us with
several examples of cases in which they contributed to the investigation and
prosecution of suspected terrorists. In these cases, the intelligence research
specialists obtained information about potential terrorists through their
reviews of case files and other data provided by law enforcement agencies,
assessed the information, generated investigative leads for the FBI, and
assisted individual USAO efforts to prosecute suspected terrorists. For
example:

       •   In a case involving two suspects arrested on charges of lying to
           federal agents about connections to terrorist training camps in
           Pakistan, the intelligence research specialist told us that he


U.S. Department of Justice                                               15
Office of the Inspector General
Evaluation and Inspections Division
           assisted FBI employees and the JTTF before and after the arrests.
           The intelligence research specialist helped draft Intelligence
           Information Reports for the FBI, reviewed interview notes prepared
           by special agents, conducted additional research, performed link
           analysis and name checks in databases, and assisted in drafting
           material witness affidavits. The intelligence research specialist
           provided regular briefings to the U.S. Attorney and the ATAC
           Coordinator regarding the case and helped the USAO with
           additional prosecutorial preparations.

       •   In a case involving two suspects arrested for laundering money,
           providing material support to a foreign terrorist organization, and
           importing firearms without a license, the intelligence research
           specialist provided open source research for certain elements of the
           case, reviewed classified material, conducted telephone number
           analysis, and identified links between the suspects and other
           individuals.

       Individually, many intelligence research specialists have carried out
their functions and made valuable contributions to their USAOs’ anti-
terrorism efforts exemplified by the cases cited above. However, EOUSA, in
coordination with the USAOs, should ensure that the intelligence research
specialists in all districts use a consistent approach to carrying out their
intelligence functions and that the work of the intelligence research
specialists is integrated fully into the Department’s anti-terrorism and
intelligence efforts. EOUSA has yet to provide standards and guidance to
better ensure consistent information collection efforts, work with the FBI to
provide all intelligence research specialists with access to the FBI’s
investigative databases, define and standardize work products, promulgate
standards for quality analytical products, ensure the dissemination of
analytical products to the Office of Intelligence Policy and Review (OIPR),
and coordinate coverage for short- and long-term vacancies. The following
sections detail our findings regarding each of these areas.




U.S. Department of Justice                                               16
Office of the Inspector General
Evaluation and Inspections Division
Information Collection

        We found that the information collected by the intelligence research
specialists differed markedly among USAO districts. Implementing an
effective intelligence capability requires a clear understanding of the sources
and types of information to collect. EOUSA, in coordination with the
USAOs, has not identified the
information that intelligence
research specialists should                   Information vs. Intelligence
collect, particularly during case
file reviews.                            Information is defined as pieces of raw,
                                                unanalyzed data that identifies persons,
                                                evidence, events, or illustrates processes.
       One of the best ways for                 Intelligence is the knowledge derived from
intelligence research specialists               the logical integration and assessment of
to collect information is to review             that information.        Intelligence analysts
case files for connections to                   consider    the     information's    reliability,
                                                validity, and relevance. They integrate data
terrorism, either from non-                     into a coherent whole, put the evaluated
terrorism prosecutions and                      information in context, and produce
investigations obtained by the                  finished     intelligence     that     includes
USAO, or terrorism case files at                assessments of events and judgments
the FBI. However, not all                       about the implications of the information.
                                                Intelligence, therefore, is the knowledge
intelligence research specialists               derived from the logical integration and
have been reviewing case files at               assessment of information.
the USAOs and the FBI. Only 39
                                        Sources: “The Intelligence Cycle,” Central Intelligence
of 79 intelligence research             Agency. Online:
specialists we interviewed told us      http://www.cia.gov/cia/publications/facttell/intellige
                                        nce_cycle.html, accessed July 15, 2005, and Dr. David
that they collected information by      Carter, Law Enforcement Intelligence, A Guide for State,
reviewing case files. Moreover,         Local, and Tribal Law Enforcement Agencies, Michigan
even among the intelligence             State University, March 2004.

research specialists who were
reviewing case files, there was no
uniformity in the type of cases reviewed or the information collected from
the cases. For example, in one district, the intelligence research specialist
stated that he routinely reviewed FBI cases to look for trends and
connections that might be beneficial at the national level. He added that
some attorneys within the USAO would meet with him to talk about leads
from their cases. However, in another district, the intelligence research
specialist stated that he could not review FBI case files unless he was
accompanied by an attorney. Therefore, he would, on occasion, go with an
attorney to review case files. In addition, the intelligence research specialist
would also attend case presentations by FBI special agents to the
U.S. Attorney. Some specialists said that they reviewed only open cases,



U.S. Department of Justice                                                                 17
Office of the Inspector General
Evaluation and Inspections Division
while others said they also reviewed cases their USAOs had declined to
prosecute.

       The types of information collected also differed, and not all intelligence
research specialists collected and analyzed the information to provide
actionable intelligence. Some specialists said that they reviewed cases to
identify possible terrorist-related incidents or discover potential terrorist
connections. Others said that they also checked subjects identified during
the case reviews against databases to identify possible terrorism
connections. Some performed link analysis. For instance, one intelligence
research specialist told us that he used information collected from cases he
reviewed to create a link analysis document that identified a human
trafficking operation along the northern U.S. border involving aliens from
Pakistan. It was later determined that some information contained in this
link analysis document was connected to other active JTTF cases.

       Also, 40 intelligence research specialists reported to us that they did
not have access to FBI databases. 17 Because the FBI investigates terrorism
cases, access to the FBI’s databases is essential to intelligence research
specialists and the performance of their work. 18 However, the FBI limits
access to its investigative databases to individuals, including intelligence
research specialists, who are embedded members of a Field Intelligence
Group or JTTF. 19 The FBI reported that 11 of 56 (20 percent) FBI Field
Office Field Intelligence Groups had an embedded USAO intelligence
research specialist. The FBI did not have statistics regarding the number of
USAO intelligence research specialists embedded on the JTTFs. EOUSA
reported that 25 out of 93 districts (27 percent) had intelligence research

        17 An important example of an FBI database is the FBI’s Investigative Data

Warehouse (IDW). Since it became operational in January 2004, IDW has enabled users to
search multiple FBI and other federal agency databases, intelligence community cable
messages, and watch lists. The IDW includes more than 43 million unstructured
documents and billions of structured entities, including more than 537 million names, 109
million social security numbers, 402 million addresses, and 257 million phone numbers.
According to the FBI, IDW has helped users identify relationships between data spread
across multiple FBI information sources and resulted in thousands of new leads.

       18 The Attorney General’s Guidelines on General Crimes, Racketeering Enterprise and
Terrorism Enterprise Investigations, Department of Justice, May 2002.

        19 A Field Intelligence Group is the centralized intelligence component in a FBI Field

Office that is responsible for the management, execution, and coordination of intelligence
functions. Concept of Operations, FBI, August 2003, p.7. There is one Field Intelligence
Group at each FBI Field Office. The FBI defines “embedded” as an active member of the
Field Intelligence Group. An active member works in FBI office space, has the necessary
clearances, and can access the FBI’s databases.

U.S. Department of Justice                                                             18
Office of the Inspector General
Evaluation and Inspections Division
specialists embedded on the JTTFs. Without the access to FBI databases
that membership on a Field Intelligence Group or a JTTF provides, many
intelligence research specialists will be unable to fully support anti-
terrorism efforts.

       We asked EOUSA officials about their efforts in working with the FBI
to provide all intelligence research specialists with access to the FBI’s
investigative databases. They said it was up to each district to decide
whether its intelligence research specialist worked with the FBI and to what
extent. However, they said that in May 2003, EOUSA sent a memorandum
to all U.S. Attorneys which reiterated the importance that the Department
leadership places on having intelligence research specialists actively
involved with the FBI. In addition, EOUSA had invited the former FBI
Executive Assistant Director for the Directorate of Intelligence to the annual
intelligence research specialist conference and sent several EOUSA
representatives to the FBI’s annual Field Intelligence Group conference. 20

       We found that EOUSA has not provided guidance to intelligence
research specialists regarding what type of information they should collect
when they perform case reviews. Further, EOUSA has not explored whether
it would be possible to develop a memorandum of understanding (MOU)
with the FBI regarding the interaction of the intelligence research specialists
and the FBI’s JTTFs. EOUSA officials told us that any MOU would have to
be developed at the USAO level. We asked USAO officials at three sites
whether they had established MOUs with their local JTTF, and none had.
Without guidance from EOUSA to ensure national consistency, intelligence
research specialists are unlikely to systematically collect information
identified as a priority by the Department. In fact, they may not collect
information at all, as we found in two districts in which the intelligence
research specialists reported to us that they only served as liaisons and did
not collect information as part of their duties.

        Information collection was also hampered by the lack of standard
tools to collect and analyze data. To determine whether the intelligence
research specialists were provided with technology-based tools to perform
their jobs, we asked EOUSA officials for a list of the minimum tools provided
to all intelligence research specialists. On February 25, 2005, EOUSA
officials provided to the OIG a FY 2002 Allocation Fact Sheet, which listed
the equipment and software that should be provided to intelligence research
specialists. The FY 2002 Allocation Fact Sheet stated that the intelligence
research specialists would receive laptop computers; access to existing

       20 The former Executive Assistant Director was unable to attend, but did send a

representative.

U.S. Department of Justice                                                         19
Office of the Inspector General
Evaluation and Inspections Division
commercially available databases; and access to the Regional Information
Sharing System (RISS), a secure intranet platform linking law enforcement
agencies throughout the United States.

       Beyond those basic requirements, EOUSA did not initially request
other specialized tools that
the intelligence research          Deployment of Secret Protocol Router Network
specialists needed. For                                  (SIPRNET)
example, although access to        One tool used by intelligence research specialists is
classified information is          SIPRNET.      SIPRNET provides secure classified
essential for intelligence         Secret communications; access to Secret counter-
analysis, EOUSA did not            terrorism reports, data, and analysis; and the
provide the intelligence           capability to communicate electronic national
                                   security data among the USAO districts, other
research specialists with          components, and other law enforcement and
access to a classified             national security agencies.        According to one
network (see text box). After      intelligence research specialist, SIPRNET is vital for
it was determined that the         information sharing and validation, case analysis
cost to access the classified      and development, situation awareness and risk
                                   assessment,      and     collaboration    with   other
network would be $1.4              intelligence officers.
million, EOUSA agreed to
fund it in July 2003.              Prior to the installation of SIPRNET at the USAOs,
Deployment of SIPRNET              intelligence research specialists could not send
began in June 2004 and             classified electronic information from their office to
                                   members of the intelligence community or quickly
most districts had the             access Secret counterterrorism reports, data, and
network by July 2005.              analysis available to the rest of the intelligence
While 13 months is not an          community.          Several    intelligence   research
excessive amount of time to        specialists reported that they had to access
deploy SIPRNET to all 93           SIPRNET at other agencies (such as the FBI or
                                   military installations) to communicate and
USAOs, the capability to           exchange classified information.
access this classified
network could have been
implemented up to 18 months sooner had EOUSA more fully identified the
tools needed in February 2002. As of March 2005, EOUSA had not
developed a consolidated list of the tools available to and actually being
used by all intelligence research specialists.

       We asked 79 intelligence research specialists to identify the tools that
they were using to accomplish their intelligence analyst duties. They
identified 62 different tools at their disposal. Some of them were specific to
the law enforcement agencies and intelligence communities, such as
SIPRNET, RISS, i2 Analyst Notebook® (a software program that allows the
intelligence research specialist to perform timeline and link analysis),
research tools (such as LexisNexis® and ChoicePoint), and Law Enforcement


U.S. Department of Justice                                                        20
Office of the Inspector General
Evaluation and Inspections Division
Online (a national, interactive law enforcement information system
developed by the FBI). Other tools that they identified were everyday office
equipment, such as facsimile machines, computers, and cellular phones.

       Although not all intelligence research specialists had uniform access
to the same analytical tools, 63 of the 79 intelligence research specialists
(80 percent) stated that they had adequate tools. Of the 16 (20 percent) who
stated that tools were inadequate, the most requested tool was access to
other agencies’ databases and systems such as Joint Worldwide Intelligence
Communications Systems (JWICS) and Financial Crimes Enforcement
Network (FinCEN). 21 We asked current and former EOUSA officials whether
they considered providing these tools to the intelligence research specialists.
They stated that JWICS was too expensive because it requires the
construction of Sensitive Compartmented Information Facilities and that the
Department of the Treasury requires each USAO to independently negotiate
an MOU for access to FinCEN. Although EOUSA may not be able to provide
access to JWICS and FinCEN to all intelligence research specialists, there
are specific instances in which access to these tools would help the
intelligence research specialists perform their duties. For example, access
to FinCEN would be helpful for money laundering cases and access to
JWICS would be helpful for cases involving Top Secret information.

       We contacted the FBI to identify the tools it provides to its intelligence
analysts. The FBI provided a list of essential tools that each of its
intelligence analysts received. Although the list contained some of the same
tools identified by the USAO intelligence research specialists, the FBI list
also identified other useful analytical tools. Because the FBI’s list is
classified, we do not discuss the additional tools the list contains. However,
on September 22, 2005, we informed EOUSA officials of the existence of the
FBI list and suggested that they obtain the list to review the applicability of
the additional tools.

       In summary, to implement an effective intelligence capability, EOUSA
and the USAOs must identify the types of information that the intelligence
research specialists should collect, ensure that the specialists have access
to the sources of the information, and provide the tools that the specialists
need to carry out their collection and analysis efforts. However, we found
that these essential steps have not been completed to enable intelligence
research specialists to systematically collect and analyze information.

       21  JWICS is the sensitive, compartmented information portion of the Defense
Information Systems Network. The Department of the Treasury’s FinCEN unit, which
analyzes information it collects under the Bank Secrecy Act, supports federal, state, local,
and international law enforcement efforts to combat money laundering.

U.S. Department of Justice                                                             21
Office of the Inspector General
Evaluation and Inspections Division
Work Products of the Intelligence Research Specialists

       The format and content of the work products developed by the
intelligence research specialists is not consistent. According to the Law
Enforcement Intelligence, A Guide for State, Local, and Tribal Law
Enforcement Agencies, work products that contain intelligence or critical
information should maximize their utility to the end user. This is
accomplished by producing work products that have a consistent format,
and clearly defined content. The lack of consistent format and content in
the products we reviewed limited the USAOs’ ability to track or manage the
output. The variations occurred because EOUSA and the USAOs have not
defined the work products expected from intelligence research specialists or
established quality standards.

       Work product formats and content vary widely. To identify the
standard types of work products produced, the OIG requested that the 79
intelligence research specialists we interviewed provide examples of their
work products. The OIG received 226 work product examples from 68
intelligence research specialists. 22 The examples included presentation
slides, training materials, and link charts. We reviewed the contents of each
work product and judgmentally assigned it to one of the intelligence
research specialists’ core work functions of information sharing, intelligence
analysis, and JTTF and ATAC activities. 23

     Our review of the 226 work examples found 29 different types of work
products with myriad names and formats. Examples of the types of work
products prepared by the intelligence research specialists included:

       •    Information sharing – ATAC training materials; field training
            exercises related to airport security, domestic preparedness, and
            bioterrorism scenarios; presentations on intelligence advisory
            groups, terrorist financing, intelligence fusion centers, terrorist
            techniques, and international terrorist incidents; informational
            bulletins; JTTF notes with information on international terrorist
            incidents; law enforcement incidents reported locally, regionally, or

       22 Of the 79 intelligence research specialists interviewed by the OIG, 7 did not send
material because they worked only on cases involving classified information. Another four
said they did not produce any work products or were unable to provide examples because
the specialist was on extended leave.

       23 We received nine work products that were not clearly related to information

sharing, intelligence analysis, or JTTF and ATAC activities, including one USAO Critical
Incident Response Plan, one statement of the intelligence research specialist’s goals, two
“work completed” summaries, and five miscellaneous documents.

U.S. Department of Justice                                                            22
Office of the Inspector General
Evaluation and Inspections Division
           at the national level; a quick reference directory of contacts related
           to anti-terrorism activities; surveys; a guide to “warning signs” of
           terrorist activity; and working group notes.

       •   Intelligence analysis – Analyses of groups of interest; district threat
           analyses; specific event analyses; industry-related assessments;
           tactical analyses; case-related analyses; and link charts.

       •   JTTF and ATAC activities – Advisory bulletins; ATAC agenda,
           meeting notes, charters, e-mails, and newsletters; intelligence
           advisory group information; and threat memorandums to the
           JTTF.

       OIG Review of Selected Intelligence Reports.

       Of the 226 examples provided, we identified and reviewed 14
intelligence reports. 24 Although each agency determines what its
intelligence reports should contain, intelligence reports generally include the
following characteristics:

       •   Have a terrorism nexus. The purpose of the intelligence research
           specialist is to support the Department’s anti-terrorism efforts.
           Therefore, the information presented in the products should be
           terrorism-related.

       •   State the purpose. Identifying the report’s purpose helps
           recipients decide how to use the information in the report.
           Without a clear statement of purpose, a user may be unable to
           easily determine whether a document is background information,
           or conveys actionable intelligence.

       •   Contain a conclusion. Summarizing key judgments and findings
           in a conclusion and, when appropriate, recommending a course of
           action, allowing users to interpret intelligence analysis in a
           consistent manner.

       •   Identify the sources of information. A clearly identified source
           allows the reader to assess the reliability of the information or
           analysis.



       24 Intelligence reports are also sometimes referred to as finished intelligence or

analytic reports.

U.S. Department of Justice                                                             23
Office of the Inspector General
Evaluation and Inspections Division
       •   Display proper classification markings. Clearly identifying the
           sensitivity or classification of the information (e.g., Law
           Enforcement Sensitive) helps prevent sensitive information from
           being compromised.

      Only 3 of the 14 intelligence reports we reviewed addressed all 5 areas
(21 percent). Another six addressed four areas, and three intelligence
reports addressed only one area. The following table summarizes the
results of the review.


              Table 1: Review of Intelligence Report Examples

            Terrorism                                              Classification
                             Purpose         Conclusion   Source
              Nexus                                                   Marking
Yes            11                7              10          9            11
No              3                7              4           5            3
Source: Intelligence research specialists.

      EOUSA should provide better guidance on the types of information
sharing and intelligence analysis products to be produced. We examined
the causes for the variability in the format and content of the intelligence
research specialists’ work products and, as with information collection,
found that EOUSA has not provided guidance on the types of information
sharing and intelligence analysis products that should be produced.
Specifically, EOUSA has not identified the products that would be useful to
the end users of the intelligence research specialists’ work nor established
standard formats to ensure reasonable uniformity and consistency in these
products. In addition, EOUSA has not taken steps to determine what work
products are being produced by the intelligence research specialists.

       Because of the variability in format and content, the intelligence
research specialists’ work products are not easily recognized as USAO
intelligence analysis products by potential end users, such as law
enforcement officials, first responders, and the private sector. That makes it
more difficult for potential end users of the intelligence to identify, interpret,
and act on the information in the documents. According to a law
enforcement intelligence guide developed by Michigan State University for
state, local, and tribal law enforcement agencies, and funded by the Office of
Community Oriented Policing Services (COPS): “Without fixed, identifiable




U.S. Department of Justice                                                  24
Office of the Inspector General
Evaluation and Inspections Division
intelligence products, efforts will be wasted and information will be shared
ineffectively.” 25

       In contrast, we found that other agencies have defined the types of
work products that their intelligence research specialists produce. For
example, the former FBI’s Executive Assistant Director for the Directorate of
Intelligence stated that when the Directorate was first established, the FBI
found that its field offices were producing intelligence products using
myriad formats and categories, which created three problems for the FBI.
First, the work products were not easily identified as FBI products. Second,
the FBI did not have control over the distribution of its work products.
Third, the FBI was unable to determine the amount and type of work being
produced. The FBI resolved these problems by reducing the number of
intelligence analyst products from several hundred to three. The three FBI
products are intelligence information reports (IIR), intelligence assessments,
and intelligence bulletins. Each has a defined format and quality standards
to guide the FBI’s intelligence research specialists in what data and
information to include.

      The lack of standardized work products by intelligence research
specialists has caused problems for the USAOs similar to those reported by
the FBI. Reducing work product variability would provide three benefits for
the USAOs’ intelligence capability. First, making the intelligence products
more recognizable enables the end users to better assess the reliability of
the products. Second, standardizing and reducing the number of work
products enables the USAOs to monitor where the products are going,
which the former FBI Executive Assistant Director pointed out is especially
important for intelligence material. Third, standardizing the work products
would permit EOUSA and the USAOs to measure the types and amount of
work that the intelligence research specialists produce and make better
informed management decisions about how to use the information
contained in the work products.




       25 Law Enforcement Intelligence, A Guide for State, Local, and Tribal Law

Enforcement Agencies, Michigan State University, March 2004, p. 80.

U.S. Department of Justice                                                         25
Office of the Inspector General
Evaluation and Inspections Division
       No quality standards exist for USAO intelligence research specialist
work products. EOUSA and the USAOs have not established uniform
standards to ensure consistent, high quality intelligence research specialist
work products. Fifty-two of the 79 (66 percent) intelligence research
specialists stated that their district had not established quality standards.
Of the remaining 27 intelligence research specialists, 6 said that they had
adopted standards developed by other agencies, such as the FBI or the state
intelligence fusion center. The other 21 did not cite specific quality
standards, but stated that they checked the products for spelling, grammar,
identification of sources, and organization.

       EOUSA provides limited review of intelligence research specialist
analytical work products. According to the EOUSA Deputy Counsel, EOUSA
does not review intelligence
research specialist analytical                    FBI Quality Standards
work products. Further, she             The former FBI Executive Assistant Director
said that it would be               for the Directorate of Intelligence described how
impractical for EOUSA to            FBI supervisors evaluate the work products of FBI
review every work product           intelligence analysts. She said the FBI adopted
produced by the USAOs’              many of the standards developed by the U.S.
                                    military. In addition, the Directorate monitors
intelligence research               whether the work products meet its quality
specialists. She stated that        standards through feedback obtained from a
the review of work products         customer satisfaction survey.         The survey
occurs at the USAO by the           instrument seeks feedback on whether the
appropriate supervisor. The         products were delivered within established
                                    deadlines; were timely and relevant to the
OIG agrees that it is               mission, programs, priorities, or initiatives;
unnecessary and impractical         presented information in a clear and logical
for EOUSA officials to review       manner that supported the judgments and
every work product. For             conclusions; and were reliable.       The survey
instance, the most common           instrument   also asks whether  the work  products
                                    addressed an intelligence gap, resulted in more
intelligence research               informed decisions, provided new insights, or
specialist product, the ATAC        changed working premises.
newsletter, does not require
higher-level review because it is typically a compilation of news articles and
state, local, and federal contact information. Nonetheless, in our opinion,
intelligence research specialist products that analyze terrorist threats,
potentially represent the position of the Department, and are widely
disseminated, may benefit from a higher level of review to ensure that they
are consistent and accurate. A review process could not only improve work
product quality, but also identify emerging trends across regions, reduce
duplication of effort, identify other potential users of the products, and
make connections among disparate events that could reveal potential
security threats.


U.S. Department of Justice                                                     26
Office of the Inspector General
Evaluation and Inspections Division
      EOUSA could better assess ways to make intelligence research
specialist products more useful. EOUSA and the USAOs have not evaluated
the usefulness of their intelligence research specialists’ work products to
internal and external end users. The primary external users of the work
products are local, state, and federal agencies. Other users of intelligence
include first responders, private industries, utility companies, university
security officers, and foreign agencies.

       According to EOUSA officials, they have not surveyed end users of the
intelligence research specialists’ work products. We did not survey all end
users of intelligence research specialist work products as a part of this
review, but during our field visits we met with over 25 end users to
determine whether they found the products useful and how the products
could be improved. Overall, most end users were positive about their
working relationship and the work products provided by the intelligence
research specialists, but they provided several suggestions for improvement.
For example, personnel from state intelligence agencies and intelligence
fusion centers said that, to better assist them with their work, the
intelligence research specialists should provide more intelligence analyses.
These end users did not find forwarded bulletins and articles useful. On the
other hand, state and local law enforcement officials stated that the
bulletins and articles forwarded by the intelligence research specialists were
useful. We informed EOUSA of the comments we received from end users.
In response, EOUSA officials agreed that it would be a good idea to survey
the end users to better determine their needs.

       Since June 2004, EOUSA’s internal inspection unit, the Evaluation
and Review Staff (EARS), has evaluated the intelligence research specialist
function as a part of its triennial reviews of each USAO. To review the
intelligence research specialist function, EARS developed an interview guide
that contains 34 questions regarding general responsibilities; receipt,
analysis, and dissemination of anti-terrorism information; JTTF and ATAC
activities; case reviews and access to cooperating defendants and witnesses;
access to information and analysis tools; and resource levels. Examples of
questions include:

       •   During the last 3 years, have you conducted or
           participated in any initiatives, program, or data mining
           and analysis operations specific to your District to
           identify potential terrorist prosecution targets, to include
           material support cases? If so, what were they and what
           were the results?


U.S. Department of Justice                                                27
Office of the Inspector General
Evaluation and Inspections Division
       •   Do you routinely review case files that are being declined
           to ensure the individual has been checked against the
           proper databases for possible terrorism connection or
           other current wants or warrants? What system, if any, is
           in place to ensure that you have access to all declined
           case files?

      EOUSA extracted and provided to us the sections containing remarks
on the operations of the intelligence research specialists from the last EARS
review of each of the 93 USAOs. EARS conducted those 93 inspections
between October 2001 and June 2005, but only 25 of the 93 occurred after
June 2004, when EARS began using the new questionnaire. We found that
the reports on the 25 EARS inspections conducted since the questionnaire
was implemented did not contain sufficient information to enable us to
evaluate the operations of the intelligence research specialists.

       We reviewed the relevant report sections of the 25 inspections
conducted after June 2004 and found that only 11 included evaluative
statements (44 percent). The evaluative statements about the intelligence
research specialist positions differed in each report. For example, one
report stated that the intelligence research specialist “[e]stablished effective
information sharing between local, state, and federal agencies” and that
“[h]e is fully integrated with the JTTF.” A second report stated that the
intelligence research specialist “works to ensure that state and local
authorities are kept informed,” while a third stated that the intelligence
research specialist “is active within the district and has established effective
information sharing between local, state, and federal agencies.” Of the other
14 reports, 5 made no mention of the intelligence research specialist
function, and the remaining 9 included comments such as the hiring status,
the general duties performed, or the professional background of the
specialist.

       According to the EARS Assistant Director, the final evaluation report
may or may not include detailed information on the review of the
intelligence research specialists operations for several reasons. In some
cases, there was no information because the USAO had not hired an
intelligence research specialist. However, we found that even where the
positions were filled, the final EARS reports did not provide sufficient
information to enable EOUSA to monitor the USAOs’ use of intelligence
research specialists.




U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation and Inspections Division
Policy Guidance for Intelligence Research Specialists

      Although EOUSA is responsible for issuing policy and providing
guidance for USAOs, it has not created a consolidated index of all policy
guidance applicable to the intelligence research specialists or posted all the
guidance on its “EOUSA ATAC/Intelligence Research Specialist” intranet
page. Consequently, it is difficult for intelligence research specialists and
others to find complete, applicable guidance.

       During our interviews, one-third of the 79 intelligence research
specialists stated that the guidance provided to them was inadequate.
Several intelligence research specialists stated that they had not seen all of
the relevant guidance. Importantly, the documents that had not been
reviewed included guidance such as the Intelligence Research Specialist
“Best Practices” memorandum that contained suggestions on how the
USAOs could utilize intelligence research specialists. In addition, in
responding to our survey, 23 percent of the 83 respondents (including U.S.
Attorneys and other USAO personnel) rated EOUSA policy guidance
concerning intelligence research specialists as below average or poor. When
informed of the interview and survey results, EOUSA officials told us that
the policy guidance is available on the ATAC/intelligence research specialist
intranet page and that it is the responsibility of the intelligence research
specialists to review the guidance.

       Guidance available on the intranet. We examined the guidance
included on the EOUSA’s ATAC/intelligence research specialist intranet
page and found that it was out of date and poorly organized. Intelligence
research specialist guidance is available on the intranet under two different
links titled “EOUSA Memos” and “AG/DAG Memos.” We checked both links
to determine whether they contained all of the guidance related to the
intelligence research specialist positions.

      When we accessed the intranet site in July 2005, it listed the “date
last updated” as January 2004. The date of the last intelligence research
specialist related guidance posted on the intranet site was December 18,
2003, although guidance has been issued since that date. For example, in
May 2004, EOUSA issued a memorandum regarding the installation of
SIPRNET, but that memorandum was not on the intranet site.

      The information the site did provide was duplicative, lacked
descriptive titles to identify the contents, and could not be sorted by title,
subject matter, or recipient. A total of 213 documents were available under
the “EOUSA Memos” and “AG/DAG Memos” links. A review of the 213


U.S. Department of Justice                                               29
Office of the Inspector General
Evaluation and Inspections Division
documents found 79 documents (37 percent) that appeared under both
links. Therefore, there were actually 134 individual documents on the site.
Of the 134 documents, approximately 15 had some information related to
intelligence research specialists. However, these documents were not
indexed or clearly labeled. For example, one document titled “Designation
of AUSAs” actually contained information on intelligence sharing
procedures. Because pertinent documents could not be easily identified and
searched, an intelligence research specialist would have to review all 213
documents on the intranet site to avoid missing important information.

Dissemination of Intelligence

       The intelligence research specialists disseminate their work products
to a broad range of users, but they have not provided their work products to
the Department’s Office of Intelligence Policy and Review (OIPR) to ensure
that intelligence from USAO districts is identified, shared, and acted upon
appropriately. 26 Although intelligence research specialists produce and
disseminate work products to meet the needs of their districts, EOUSA
recognized that their intelligence products should also be available to the
rest of the Department. On May 7, 2003, the Director of EOUSA sent all
U.S. Attorneys a memorandum titled Integration of USAO Intelligence
Research Specialists that stated:

       In an effort to incorporate the work of the intelligence
       research specialists into the Department’s overall intelligence
       program, all reports and analyses produced by the
       intelligence research specialists should also be submitted
       directly to the Office of Intelligence Policy and Review (OIPR).
       OIPR’s simultaneous receipt of this information from each
       district will further the common objective of ensuring that
       related intelligence from other districts and agencies is
       identified,    shared,    and     acted    upon   appropriately.
       Information, such as the analytical reports generated by the
       intelligence research specialists on the 199 file reviews and
       other enforcement and intelligence initiatives, will greatly
       enhance our efforts to detect and prevent any further
       terrorist activity.



         26 OIPR also assists senior Department officials in fulfilling national security-related

activities; provides legal advice and guidance to U.S. government elements engaged in these
activities; and oversees the implementation of Foreign Intelligence Surveillance Act and
other statutory, Executive Order, or Attorney General based operation authorities.

U.S. Department of Justice                                                                30
Office of the Inspector General
Evaluation and Inspections Division
       Although the memorandum is included on the EOUSA intranet page,
we spoke with EOUSA officials and found that they were unaware that this
memorandum had been issued. Further, on June 29, 2005, OIPR’s Chief of
Staff told us that OIPR had never received the May 7 memorandum and had
never received any analytical reports from intelligence research specialists.
The official confirmed that OIPR would be interested in receiving the
analytical reports. After the OIG informed EOUSA officials of OIPR’s
statement, these officials indicated that they would need to review the
matter.

       In addition to disseminating their analytical work products within
their districts, intelligence research specialists share information by
providing training to ATAC members (such as state and local law
enforcement groups and first responders). These training activities were
funded initially using the $100,000 that each of the district ATACs received
in FY 2002 to purchase communication equipment and organize anti-
terrorism training for state and local law enforcement agencies. In a June
2005 report, the OIG noted that since FY 2002, there had been no
additional appropriations to provide anti-terrorism training and that EOUSA
had not adequately assessed ATAC budget needs. 27 ATAC Coordinators
interviewed during that review stated that funding was needed to continue
offering training to ATAC members, and some USAOs supplemented their
ATAC funding using their general budgets or the Law Enforcement
Coordinating Committee allocations.

       During this review, 23 of 79 intelligence research specialists (29
percent) told us that the lack of dedicated funding severely limited their
ability to provide training as a part of their ATAC responsibilities. In its
response to the OIG’s June 2005 report, EOUSA agreed to “strategically
analyze the ATAC budget to assess the need for future funding. . . .”
EOUSA stated that the FY 2005 appropriation included an enhancement for
terrorism prevention and that EOUSA was exploring options to use the
funding, as well as funding it may receive in FY 2006 and FY 2007, to
support the ATAC program. In September 2005, EOUSA officials indicated
that funding issues related to the intelligence research specialists would be
considered as a part of the ATAC funding process.

Vacancy Rates

      EOUSA could better support U.S. Attorneys in their efforts to reduce
short- and long-term intelligence research specialist vacancies by serving as

       27 The Department of Justice's Terrorism Task Forces, OIG Evaluation and

Inspection Division Report, I-2005-007, p. 106.

U.S. Department of Justice                                                        31
Office of the Inspector General
Evaluation and Inspections Division
a coordinator to ensure that districts with vacancies are given needed
assistance. As of June 15, 2005, 20 percent of the positions were vacant
because the incumbent was on military leave, on a special detail, or the
position had not been filled. In September 2005, the National Coordinator
told us that the retention of intelligence research specialists was a problem
that needed to be addressed by EOUSA and the USAOs. The map on the
following page illustrates the intelligence research specialist positions that
were unoccupied.




U.S. Department of Justice                                               32
Office of the Inspector General
Evaluation and Inspections Division
       Chart 3: Vacant Intelligence Research Specialist Positions
                          as of June 15, 2005




Sources: Intelligence research specialists and ATAC Coordinators.


U.S. Department of Justice                                          33
Office of the Inspector General
Evaluation and Inspections Division
       EOUSA stated that it was the responsibility of each USAO to arrange
for coverage in the absence of its intelligence research specialist. However,
we believe that EOUSA is better positioned to address this matter than the
individual USAO for three reasons. First, EOUSA officials helped develop
intelligence research specialist position functions. Second, unlike most
positions filled by USAOs with designated hiring authority, EOUSA approves
all intelligence research specialist selections made by the USAOs. Third,
EOUSA regularly helps coordinate USAO efforts in other areas and EOUSA
is best positioned to address issues that require the shifting or sharing of
resources among districts.

       We believe that EOUSA can help ensure the continuity of the
intelligence research specialist functions in each district by monitoring
vacancies and improving efforts to provide intelligence assistance to districts
without an intelligence research specialist.

       Currently, in some districts with vacancies, other USAO personnel
have assumed some of the intelligence research specialists’ duties and
responsibilities, and in some cases other agencies have agreed to provide
assistance. In our review, we identified at least 16 districts in which the
intelligence research specialists had made informal agreements to provide
limited coverage in case of absences by forwarding copies of ATAC bulletins
to districts without an incumbent intelligence research specialist. However,
these individuals have their own district responsibilities to perform and can
devote only a portion of their time to provide coverage for another district.
In addition, some districts have developed a regional approach in
coordinating and providing coverage with end users they share. For
example, in Texas, which encompasses four USAO districts, the intelligence
research specialist for the district that included the Texas National Guard
headquarters agreed to serve as the primary point-of-contact and
representative with the National Guard on behalf of the other three USAO
districts. According to Law Enforcement Intelligence, A Guide for State,
Local, and Tribal Law Enforcement Agencies, a regional approach is more
cost efficient because resources are shared, and “it is more effective because
there is a broader array of information input covering a wider geographical
area.” 28

       By adopting a similar regional approach, EOUSA could more
effectively coordinate the use of intelligence research specialists and
leverage existing resources within geographic regions. The benefits of this



       28   Michigan State University, March 2004, p. 63.

U.S. Department of Justice                                               34
Office of the Inspector General
Evaluation and Inspections Division
approach that we identified through our discussions with the intelligence
research specialists include:

       •   State and local law enforcement officials would have a single point-
           of-contact to forward and receive information. As a result, the
           entire region could receive notification of pertinent issues at the
           same time.

       •   Regional issues and concerns could be identified quickly and
           information could be shared on a timely basis with the appropriate
           parties.

       Addressing the gaps in coverage caused by vacancies and responding
effectively to the emerging emphasis on intelligence in the Department will
require a well-planned and coordinated approach. We believe the current
ad hoc approach cannot ensure that the intelligence research specialists’
duties and responsibilities are performed consistently in all districts.
Maintaining the continuity of the intelligence research specialist function is
especially important for those districts that have critical infrastructure
(such as seaports or nuclear power plants), where adjoining districts have
vacant positions, and for high-risk districts. Gaps in coverage resulting
from vacancies affect USAOs’ ability to receive, analyze, and share
information.

      While many intelligence research specialists independently
established cooperative agreements to provide coverage in the event of a
vacancy, EOUSA needs to provide coordination to promote the continuity of
the intelligence research specialist function in all USAOs. For example,
EOUSA could work with ATAC coordinators in neighboring districts to
ensure districts with intelligence research specialist vacancies receive
information and intelligence, bulletins, reports, copies of ATAC meeting
minutes, and other support as needed.




U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
                       CONCLUSION AND RECOMMENDATIONS


CONCLUSION

       The Department in FY 2002 received 93 intelligence research
specialist positions to provide an intelligence capability to each USAO,
improve the USAOs’ capability to prosecute cases with a terrorism nexus,
and to coordinate the USAOs’ anti-terrorism activities with those of the
Department. To enable the USAOs to fully support the anti-terrorism
activities of the Department, the USAOs’ intelligence research specialists
must employ a systematic approach in their collection, analysis, and
dissemination of intelligence.

       However, we found that intelligence collection efforts and intelligence
work products are inconsistent, and critical information and intelligence
produced by intelligence research specialists is not shared among districts
or across the Department as appropriate. We recognize that each U.S.
Attorney exercises considerable discretion in the use of his or her resources
to further the district’s priorities and the needs of the local community.
Nonetheless, given the continuing changes in the intelligence field at the
national and state levels – and particularly within the Department – we
believe that EOUSA and the USAOs need to focus greater attention on the
integration and use of intelligence research specialists.

       To ensure that the Department gains the maximum benefit from the
93 intelligence research specialist positions, we recommend that EOUSA
and USAOs provide better guidance to improve the collection, analysis, and
dissemination of intelligence produced by the USAO intelligence research
specialists. EOUSA and the USAOs should define the types of information
the intelligence research specialists collect and work with the FBI to provide
all intelligence research specialists with access to the FBI’s investigative
databases. Further, EOUSA and the USAOs should consider standardizing
the work products, provide for an appropriate review, and improve their
distribution. EOUSA and the USAOs should also address gaps in coverage
resulting from vacancies so that all USAOs maintain the capability to
perform intelligence analysis and share important information. By taking
these actions, we believe that EOUSA and the USAOs can improve the use
of intelligence research specialists and enhance the Department’s anti-
terrorism efforts to identify terrorists and terrorist networks, and prevent
terrorist attacks.




U.S. Department of Justice                                               36
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

      The OIG is making eight recommendations to help EOUSA and the
USAOs improve the use of the intelligence research specialists in supporting
the Department’s anti-terrorism efforts. We recommend that the EOUSA:

       1.     Improve the consistency of the implementation of the
              intelligence research specialist function by:

              a. Identifying the types of information, by source, to be
                 collected by intelligence research specialists;

              b. Working with the FBI to provide all intelligence research
                 specialists with access to the FBI’s investigative databases

              c. Identifying standard tools for all intelligence research
                 specialists;

              d. Surveying intelligence research specialists to determine
                 which of the standard tools they lack and supplying missing
                 tools to those who need them;

              e. Defining work products that intelligence research specialists
                 produce; and

              f. Establishing standards to ensure the consistency and
                 quality of intelligence research specialist work products.

       2.     Provide intelligence research specialists with current and
              complete guidance by:

              a. Developing and posting on the EOUSA’s intranet site an
                 intelligence research specialist manual that includes all
                 pertinent guidance issued by the Attorney General, EOUSA,
                 and USAOs on the roles and duties of the intelligence
                 research specialist, including templates, examples of work
                 products, and quality standards.

              b. Updating the EOUSA intranet page to provide complete,
                 current, and organized guidance.




U.S. Department of Justice                                                  37
Office of the Inspector General
Evaluation and Inspections Division
       3. Identify ways to ensure that intelligence research specialists’
          original analytical work products are reviewed in order to meet
          quality standards.

       4. Ensure that the work of the intelligence research specialists is
          disseminated to the Department as appropriate.

       5. Survey consumers of intelligence research specialist products
          regarding work product applicability, quality, and areas for
          improvement.

       6. Ensure that the Evaluation and Review Staff (EARS) reports
          include an evaluation of the intelligence research specialist
          position.

       7. Provide appropriate coordination to ensure the continuity of
          intelligence research specialist functions in all USAOs with short-
          and long-term vacancies.

       8. Reassess the role and duties of the intelligence research specialists
          in light of the Department re-organization of its intelligence
          entities.




U.S. Department of Justice                                                38
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX I: INTELLIGENCE RESEARCH SPECIALIST FUNCTIONS


      According to the 79 intelligence research specialists interviewed, the
three functions of their positions are intelligence analysis, information
sharing, and JTTF and ATAC duties. The number of intelligence research
specialists reporting that they perform each function is shown in Chart 4
below. Each function is discussed in the sections below.

                                                    Chart 4: Number of Intelligence Research Specialists Performing
                                                                         Each Function




                                                    80
      Number of intelligence research specialists




                                                    70


                                                    60


                                                    50


                                                    40              76                                              75


                                                    30
                                                                                           50

                                                    20


                                                    10


                                                     0
                                                         Information sharing   Intelligence analysis   JTTF and ATAC activities
                                                                                    Function


Source: Intelligence research specialists interviewed.

Information Sharing

       Seventy-six of 79 intelligence research specialists (96 percent) stated
that their duties included information sharing. Our review identified that in
their information sharing function, intelligence research specialists obtain,
coordinate, and disseminate information related to terrorists and terrorist
networks; provide the U.S. Attorneys with access to classified criminal
intelligence and law enforcement sensitive information; and provide a liaison


U.S. Department of Justice                                                                                                        39
Office of the Inspector General
Evaluation and Inspections Division
to federal, state, tribal, and local law enforcement, as well as with national
intelligence agencies, including the Central Intelligence Agency and National
Security Agency.

       The intelligence research specialists also share information by
providing training to groups outside the Department, including local
communities and businesses, and state and local law enforcement agencies.
Intelligence research specialists reported to us that they have provided
training on money laundering, port security, and other topics related to
domestic and international terrorism. One example of information sharing
through training is the development of a training module on port security
issues. The Intensive Marine Port Area Counter-Terrorism Program focused
on pre-incident indicators and prevention at maritime ports.
Representatives from over 50 agencies and departments worked together to
develop the 2-day curriculum that was presented in various cities in
Alabama, Florida, and Mississippi. Training participants included law
enforcement officers, first responders, and security professionals from
private industries.

Intelligence Analysis

       Fifty of 79 (63 percent) intelligence research specialists reported that
they perform intelligence analysis. The Attorney General recognized the
importance of analyzing intelligence information, stating, “Beyond collection
and dissemination, information in your custody must be carefully and
expertly analyzed in order to assess its relevance and reliability in
identifying threats and investigative leads.” 29 The Attorney General
therefore directed the U.S. Attorneys to assess and improve their intelligence
analysis capabilities. The Executive Assistant Director for the FBI’s
Directorate of Intelligence also stated that turning raw data into actionable
intelligence is an important added value that the intelligence research
specialists can offer to the USAOs and the Department.

       Intelligence analysis may include such activities as conducting case
reviews, analyzing specific threats (e.g., threats posed by specific groups),
and providing risk assessments (e.g., to identify vulnerabilities in a district
or industry). This involves analyzing information from various sources to
identify threats, offer courses of action, or provide insight on topics of
interest. For example, during a USAO case review, the intelligence research
specialist can identify possible terrorist links, work with the JTTF and the
FIG to identify terrorist connections, check subjects against the proper

      29 Prevention of Acts Threatening Public Safety and National Security, Attorney

General John Ashcroft, U.S. Department of Justice, November 8, 2001.

U.S. Department of Justice                                                         40
Office of the Inspector General
Evaluation and Inspections Division
databases for possible terrorism connections or other current wants and
warrants; perform analysis to identify links between suspects and other
individuals; review declined cases to ensure that no connections were
missed; and brief the ATAC Coordinator and U.S. Attorney as appropriate.

JTTF and ATAC Activities

       The third function relates to JTTF and ATAC activities. During our
interviews, 58 of 79 intelligence research specialists (73 percent) reported
that they worked with both the JTTF and the ATAC in their districts.
Another 10 intelligence research specialists reported working with the ATAC
only, and 7 reported working with the JTTF only. Overall, 75 of 79
intelligence research specialists (95 percent) reported participating on the
ATAC, JTTF, or both.

        The intelligence research specialists who participated on an ATAC or
JTTF told us that their duties included coordinating ATAC meetings;
sharing information with state, tribal, and local law enforcement through
ATAC meetings or newsletters; working with the JTTF as a representative of
both the ATAC and the USAO; providing advice, information, logistical
support, and intelligence analysis to both the ATAC and the JTTF; and
filtering intelligence bulletins for distribution to the appropriate ATAC or
JTTF members. For example, two intelligence research specialists from
different districts shared with each other Law Enforcement Sensitive
information about a potential domestic terrorist group with ties to both
districts. After reviewing the information and meeting with the FBI’s JTTFs,
the JTTFs in each district began and are conducting investigations of the
group.

      Although most intelligence research specialists worked with the ATAC
and JTTF, we asked the 21 intelligence research specialists who reported
that they did not participate on the local ATAC or JTTF why they did not.
The reasons included that there was no active ATAC in their district (7),
there was no nearby JTTF (7), the workload did not allow the intelligence
research specialist to support both groups (6), or their USAO had decided
not to support their participation on the JTTF (1).




U.S. Department of Justice                                             41
Office of the Inspector General
Evaluation and Inspections Division
      The table below identifies some best practice examples for each
function.

 Information Sharing
 Designate one intelligence research specialist to be the point-of-contact for a
 state agency. All other intelligence research specialists coordinate information
 through the point-of-contact.
 Work with various federal and state officials to develop a state intelligence
 fusion center. Develop standard operating procedures and help create the
 analytical section.
 Share JTTF meeting information with other intelligence research specialists in
 the same JTTF jurisdiction who are unable to attend the meetings.
 Hold joint training with various agencies (e.g., forensic epidemiology, maritime,
 and bioterrorism) that are not restricted to law enforcement. Participate in
 tabletop exercises.
 Provide antiterrorism training as part of other Department training offered to
 local and state law enforcement organizations.
 Intelligence Analysis
 Work on joint intelligence report with FBI on a regional issue.
 Obtain access to state and local databases to better analyze data.
 Review interview notes prepared by special agents, conduct additional research,
 perform link analyses and name checks in databases, and assist in drafting of
 material witness affidavits. Assist the USAO with additional prosecutorial
 preparations.
 Assist attorneys in reviewing intelligence material from the FBI and the
 Department of State and provide support during the discovery process of a
 terrorism case.
 JTTF and ATAC Activities
 Create an ATAC intelligence analysts sub-working group to discuss district
 threats and validate information.
 Hold joint ATAC meetings with other districts on a periodic basis.
 Perform outreach to tribal and Canadian officials.
 Participate in security preparations of special events such as the Democratic
 National Convention and G8 Summit.
Source: OIG interviews with intelligence research specialists.




U.S. Department of Justice                                                    42
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX II: EOUSA ORGANIZATION CHART




Source: EOUSA.




U.S. Department of Justice                              43
Office of the Inspector General
Evaluation and Inspections Division
                      APPENDIX III: LIST OF ACRONYMS


       ATAC          Anti-Terrorism Advisory Council
       AUSA          Assistant United States Attorney
       DEA           Drug Enforcement Administration
       EARS          Evaluation and Review Staff
       EOUSA         Executive Office for United States Attorneys
       FBI           Federal Bureau of Investigation
       FinCEN        Financial Crimes Enforcement Network
       FY            fiscal year
       GS            General Schedule
       IDW           Investigative Data Warehouse
       JTTF          Joint Terrorism Task Force
       JWICS         Joint Worldwide Intelligence Communications Systems
       MOU           memorandum of understanding
       OIPR          Office of Intelligence Policy and Review
       OIG           Office of the Inspector General
       RISS          Regional Information Sharing System
       SIPRNET       Secret Protocol Router Network
       USAO          United States Attorney’s Office




U.S. Department of Justice                                           44
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX IV: EOUSA’S RESPONSE TO THE DRAFT REPORT




U.S. Department of Justice                                45
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            46
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            47
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            48
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            49
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            50
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            51
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            52
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX V: OIG’S ANALYSIS OF EOUSA’S RESPONSE


      On November 9, 2005, the Office of the Inspector General (OIG) sent
copies of the draft report to the Executive Office for U.S. Attorneys (EOUSA)
with a request for written comments. EOUSA provided its written response
on December 13, 2005 (Appendix IV). EOUSA concurred with all eight
recommendations presented in the draft report. Our analysis of EOUSA’s
comments follows.

RECOMMENDATIONS

       To address several of the OIG’s recommendations, EOUSA will rely on
the Intelligence Research Specialist Program Manager, and several
intelligence research specialist working groups. In addition, EOUSA will
work collaboratively with the Office of the Deputy Attorney General by
participating in the Counterterrorism Working Group on Intelligence.

      Recommendation 1a: Improve the consistency of the
implementation of the intelligence research specialist function by identifying
the types of information, by source, to be collected by intelligence research
specialists.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that an analysis
working group will use national and Department priority intelligence
requirements as guidelines to identify the types of information, by source,
that all intelligence research specialists should gather as part of their overall
collection plan. This standard collection list will be approved by the U.S.
Attorney leading the working group and the EOUSA Director prior to its
publication. EOUSA gave a projected completion date of March 2006.

       EOUSA also noted that the definition for collection does not include
investigative activities, such as developing a human source or going covert
to answer an intelligence requirement, because the Joint Terrorism Task
Forces have the investigative mandate to operationally collect intelligence.
The intelligence research specialists’ collection effort is conducted primarily
through their liaison activities with other intelligence specialists or law
enforcement officials, and through information gathering from national and
local databases.




U.S. Department of Justice                                                 53
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a copy of
the standard collection list.

      Recommendation 1b: Improve the consistency of the
implementation of the intelligence research specialist function by working
with the Federal Bureau of Investigation (FBI) to provide all intelligence
research specialists with access to the FBI’s investigative databases.

       Status: Resolved – Open.

      Summary of EOUSA’s Response. EOUSA stated that it will organize
and invite the FBI to participate in a working group to define the available
FBI databases and explore the intelligence research specialists’ needs for
universal access to those databases. In addition, EOUSA will explore with
the FBI the possibility of a national agreement to standardize USAO access
requirements for FBI systems. EOUSA gave a projected completion date of
May 2006.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the working group’s progress and EOUSA’s determination
regarding a national agreement with the FBI to standardize USAO access
requirements for FBI systems.

     Recommendation 1c: Improve the consistency of the
implementation of the intelligence research specialist function by identifying
standard tools for all intelligence research specialists.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that an information
technology working group, in cooperation with EOUSA’s Intelligence
Research Specialist Program Manager, will identify the standard tools that
all intelligence research specialists must have to fulfill their responsibilities.
The standard tools are to include hardware, software, and database access.
The standard list will be approved by EOUSA in consultation with the U.S.
Attorney-led Intelligence Research Specialist Working Group. EOUSA gave a
projected completion date of May 2006.

      OIG Analysis. EOUSA’s planned actions are response to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the development of the standard tool list.


U.S. Department of Justice                                                  54
Office of the Inspector General
Evaluation and Inspections Division
       Recommendation 1d: Improve the consistency of the
implementation of the intelligence research specialist function by surveying
intelligence research specialists to determine which of the standard tools
they lack and supplying missing tools to those who need them.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that once the
standard tool list has been approved, it will survey the intelligence research
specialists to identify holdings and shortfalls. EOUSA will compile the
survey results and monitor where deficient items need to be provided to the
intelligence research specialists as soon as possible. EOUSA gave a
projected completion date of May 2006.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on any survey results received to date and EOUSA’s progress on the
process for monitoring survey results, and also provide a list of the deficient
items to be provided to the intelligence research specialists.

     Recommendation 1e: Improve the consistency of the
implementation of the intelligence research specialist function by defining
work products that intelligence research specialists produce.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that an analysis
working group, in cooperation with the U.S. Attorney-led Intelligence
Research Specialist Working Group and the Intelligence Research Specialist
Program Manager, will define and describe the general set of work products
common to all USAO intelligence research specialists. The working groups
will provide a general description of the most common product types along
with instructions and examples. EOUSA gave a projected completion date of
May 2006.

       OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the development of the description and definition of the general
set of work products common to all USAO intelligence research specialists.

       Recommendation 1f: Improve the consistency of the implementation
of the intelligence research specialist function by establishing standards to



U.S. Department of Justice                                               55
Office of the Inspector General
Evaluation and Inspections Division
ensure the consistency and quality of intelligence research specialist work
products.

       Status: Resolved – Open.

      Summary of EOUSA’s Response. According to EOUSA, the working
groups mentioned in Recommendation 1e will determine which products
can and should be standardized with a set format or template to ensure
consistency. The working groups will provide guidelines to set quality
standards for the intelligence research specialist work products. EOUSA
gave a projected completion date of May 2006.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the development of the quality standards for the intelligence
research specialist work products.

      Recommendation 2a: Provide intelligence research specialists with
current and complete guidance by developing and posting on the EOUSA’s
intranet site an intelligence research specialist manual that includes all
pertinent guidance issued by the Attorney General, EOUSA, and USAOs on
the roles and duties of the intelligence research specialist, including
templates, examples of work products, and quality standards.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that an
administrative working group, in cooperation with the U.S. Attorney-led
Intelligence Research Specialist Working Group and EOUSA, will develop
the manual with sections that include pertinent guidance from Department
leadership and the roles and duties of the intelligence research specialists.
The manual will incorporate the work resulting from implementing the OIG
recommendations in this report. EOUSA gave a projected completion date
of August 2006.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the development of the intelligence research specialist manual.

      Recommendation 2b: Provide intelligence research specialists with
current and complete guidance by updating the EOUSA intranet page to
provide complete, current, and organized guidance.



U.S. Department of Justice                                              56
Office of the Inspector General
Evaluation and Inspections Division
       Status: Resolved – Open.

      Summary of EOUSA’s Response. EOUSA stated that the Intelligence
Research Specialist Program Manager has begun to update the intranet
page. The Program Manager has coordinated with the EOUSA web services
team to begin developing a more robust Intelligence Research Specialist
page. An administrative working group will assist the Program Manager and
the web services team in developing, organizing, implementing, and
maintaining the intranet page. EOUSA gave a projected completion date of
March 2006.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with
information on the changes made to the EOUSA intranet page.

      Recommendation 3: Identify ways to ensure that intelligence
research specialists’ original analytical work products are reviewed in order
to meet quality standards.

       Status: Resolved – Open.

      Summary of EOUSA’s Response. EOUSA stated that an analysis
working group, in cooperation with the U.S. Attorney-led Intelligence
Research Specialist Working Group and EOUSA, will explore and identify
ways to implement a quality review process for original analytical work
products. EOUSA gave a projected completion date of May 2006.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the development of the quality review process.

      Recommendation 4: Ensure that the work of the intelligence
research specialists is disseminated to the Department as appropriate.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that implementing
this recommendation will require a collaborative effort between two distinct,
but related, working groups. These groups are an EOUSA/U.S. Attorney led
Intelligence Research Specialist working group and the Office of the Deputy
Attorney General (ODAG) Counterterrorism Working Group on Intelligence.




U.S. Department of Justice                                               57
Office of the Inspector General
Evaluation and Inspections Division
       EOUSA, along with the Counterterrorism Section in the Criminal
Division, is taking the lead on an ODAG proposal to examine the various
functions and roles of groups charged with intelligence collection, analysis,
and dissemination. EOUSA and the Counterterrorism Section are working
on this proposal to ensure there is no duplication and to determine what
roles these groups will play in the Department’s new National Security
Division. The EOUSA/U.S. Attorney-led working group will collaborate on
and support the completion of this ODAG proposal. EOUSA believes that
the combined effort will provide a framework for the dissemination of
intelligence research specialist work products to the Department.

      EOUSA added that since the implementation timeline for establishing
the National Security Division is unknown, and depends upon legislation,
EOUSA will provide periodic updates to the OIG on the progress of
recommendation 4. Consequently, EOUSA did not give a projected
completion date for this recommendation.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the working groups’ collaboration and any determinations
regarding the dissemination of intelligence research specialists’ work to the
Department (including any projected completion date).

      Recommendation 5: Survey consumers of intelligence research
specialist products regarding work product applicability, quality, and areas
for improvement.

       Status: Resolved – Open.

      Summary of EOUSA’s Response. EOUSA stated that the Intelligence
Research Specialist Program Manager and an analysis working group will
develop survey questions on work product applicability, quality, and areas
for improvement. These questions will be disseminated in conjunction with
a planned Anti-Terrorism Advisory Council (ATAC) survey to be sent in
January 2006. EOUSA gave a projected completion date of March 2006.

       OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. Before the survey is conducted, please provide the OIG
with a copy of those survey questions to be included on the ATAC survey
relating to work product applicability, quality, and areas for improvement.
By March 31, 2006, please provide the OIG with a summary of the survey
responses related to the intelligence research specialists’ work products.



U.S. Department of Justice                                              58
Office of the Inspector General
Evaluation and Inspections Division
       Recommendation 6: Ensure that the Evaluation and Review Staff
(EARS) reports include an evaluation of the intelligence research specialist
position.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that EARS will
provide the necessary guidance to its evaluators to include an evaluation of
the intelligence research specialist position in their written reports. EOUSA
will provide updated questions, as needed, so that the evaluators can
evaluate the intelligence research specialist positions properly. EOUSA gave
a projected completion date of March 2006.

       OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with (1) a
copy of the guidance given to EARS evaluators on the evaluation of the
intelligence research specialist position in their written reports, (2) any
updated questions, and (3) examples of portions of the EARS reports
implementing the new guidance. If no copies of EARS reports implementing
the new guidance are available by March 31, 2006, please provide copies of
such reports as soon as EOUSA receives them.

      Recommendation 7: Provide appropriate coordination to ensure the
continuity of intelligence research specialist functions in all USAOs with
short- and long-term vacancies.

       Status: Resolved – Open.

       Summary of EOUSA’s Response. EOUSA stated that a crisis response
working group, in cooperation with the U.S. Attorney-led Intelligence
Research Specialist Working Group and the Intelligence Research Specialist
Program Manager, will identify ways to implement a system in which
intelligence research specialists provide intelligence support to districts with
short- and long-term vacancies. EOUSA gave a projected completion date of
May 2006.

       OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the development of the system that will be implemented to provide
intelligence support to districts with short- and long-term vacancies.




U.S. Department of Justice                                                59
Office of the Inspector General
Evaluation and Inspections Division
       Recommendation 8: Reassess the role and duties of the intelligence
research specialists in light of the Department re-organization of its
intelligence entities.

       Status: Resolved – Open.

      Summary of EOUSA’s Response. EOUSA believes that the
recommendation will be satisfied when EOUSA, the Attorney General’s
Advisory Committee, and the ODAG working group recommend to the
Department’s leadership a course of action on the proposal described in its
response to Recommendation 4. EOUSA also stated that because the
implementation timeline for the National Security Division is unknown, and
depends upon legislation, it will provide periodic updates to the OIG on the
progress of Recommendation 8.

      OIG Analysis. EOUSA’s planned actions are responsive to the OIG’s
recommendation. By March 31, 2006, please provide the OIG with a status
report on the progress of the various groups and any information on a
projected completion date.




U.S. Department of Justice                                             60
Office of the Inspector General
Evaluation and Inspections Division
